<html>
<title> - NOMINATION OF JOSEPH G. JORDAN</title>
<body><pre>[Senate Hearing 112-539]
[From the U.S. Government Publishing Office]



 
                     NOMINATION OF JOSEPH G. JORDAN

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

 NOMINATION OF JOSEPH G. JORDAN TO BE ADMINISTRATOR, OFFICE OF FEDERAL 

          PROCUREMENT POLICY, OFFICE OF MANAGEMENT AND BUDGET

                               __________

                              MAY 9, 2012


        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the

        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
75-212                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
                     Troy H. Cribb, Senior Counsel
               Kristine V. Lam, Professional Staff Member
               Carly A. Covieo, Professional Staff Member
               Nicholas A. Rossi, Minority Staff Director
                Julie A. Dunne, Minority Senior Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
    Senator McCain...............................................    11
    Senator Begich...............................................    14
Prepared statements:
    Senator Lieberman............................................    21
    Senator Collins..............................................    23

                                WITNESS
                         Wednesday, May 9, 2012

Joseph G. Jordan to be Administrator, Office of Federal 
  Procurement Policy, Office of Management and Budget:
    Testimony....................................................     4
    Prepared statement...........................................    25
    Biographical and financial information.......................    28
    Letter from the Office of Government Ethics..................    40
    Responses to pre-hearing questions...........................    41
    Responses to post-hearing questions..........................    82

                                Appendix

Bay Citizen article, dated May 9, 2012, submitted for the Record 
  by Senator McCain..............................................   100
Letter of support from Mark J. Crowley, Executive Director, 
  HUBZone Contractors National Council...........................   102
Letter of support from Stan Z. Soloway, President and CEO, 
  Professional Services Council..................................   103


                     NOMINATION OF JOSEPH G. JORDAN

                              ----------                              


                         WEDNESDAY, MAY 9, 2012

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman presiding.
    Present: Senators Lieberman, Begich, Collins, and McCain.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning, and we will convene the 
hearing.
    Now, this truly adorable infant in the front row explains 
something to me. Normally when I walk by that door to head into 
the anteroom, I see the equipment of television reporters that 
has been left against the wall. Today, very pleasantly, there 
is a baby carriage. I am sure the mystery of this child's 
identity will be clarified as the hearing goes on.
    Today, we welcome Joseph Jordan, nominated by the President 
to fill one of the most important management positions at the 
Office of Management and Budget, which is the Administrator for 
Federal Procurement Policy. The person who fills this position 
is responsible for the Office of Federal Procurement Policy 
(OFPP) and is charged with overseeing procurement policies 
across our government and promoting effective, cost efficient 
spending on contracts. This is a little known position with an 
enormous impact on the operation of our government and the 
spending of taxpayer dollars.
    Federal spending on contracts over the last decade has 
spiraled upward to exceed half a trillion dollars a year. Last 
year, the Federal Government spent over $536 billion, to be 
exact, on contracts for everything from office supplies to 
advanced weapons systems to information technology.
    Fiscal discipline is obviously always good policy, no 
matter the dollar amount. But in an economy such as ours that 
is struggling, when we are looking to significantly reduce the 
Federal deficit, and with $536 billion at stake every year, 
fiscal discipline and contract effectiveness are a must. The 
OFPP, in other words, really needs to double down on its 
oversight of contract spending.
    In February 2009, just a few weeks after he was sworn into 
office, President Obama invited a number of Members of Congress 
and others to the White House for a Fiscal Responsibility 
Summit, which included a session on procurement that Senator 
Collins and I attended. It is a reflection of our probably 
distorted priorities, but let us say unconventional 
priorities--that is a better adjective--that we attended. And, 
it was quite a productive session.
    I have been pleased that the President and the Office of 
Management and Budget (OMB) have actually pushed out some of 
the reforms that we discussed at that summit. I look forward to 
Mr. Jordan's ideas about some of those reforms and his plans, 
hopefully, to keep them going.
    Joseph Jordan has a wealth of experience in the private 
sector and government related to contracting and management. He 
currently serves as a senior advisor at OMB and from 2009 to 
2011 was the Associate Administrator for Government Contracting 
and Business Development at the U.S. Small Business 
Administration (SBA). Before joining the Administration, he was 
at the consulting firm of McKinsey and Company.
    So, we thank you for being here, thank you for your public 
service, and look forward to your testimony and the questions 
and answers.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Seldom has a nominee for the position of Administrator for 
the Office of Federal Procurement Policy come before this 
Committee at a more critical time. OFPP plays a central role in 
shaping the policies and practices Federal agencies use to 
acquire the goods and services that they need to carry out 
their important missions.
    The widespread flouting of the acquisition rules by the 
General Services Administration (GSA) in connection with a 
lavish 2010 conference, as documented by the agency's Inspector 
General (IG), underscores the importance of adherence to these 
rules as a protection against the waste of taxpayer dollars. As 
the IG recently testified, GSA ``committed numerous violations 
of contracting regulations and policies and of the Federal 
travel regulation.'' The list of violations is long and growing 
as the IG continues to investigate.
    Among other findings, the IG found that for this ``over-
the-top'' conference, the GSA failed to publish solicitations 
and to compete contracts for team-building exercises and audio-
visual services, disclosed a competitor's proposed price to a 
favored customer, revealed its maximum budget for one day of 
training--$75,000--and then agreed to pay the contractor that 
amount, and increased food and beverage spending at the hotel 
including a cocktail reception and a catered breakfast in 
return for the hotel honoring the government room rate.
    This is clearly outrageous. It raises a critical question: 
How does such a thing happen?
    The IG said that this situation raises ``special concern'' 
because GSA should be a ``model'' in contracting and managing 
travel and conference planning. I could not agree more.
    Ultimately, however, it is OFPP that has the obligation to 
ensure across government that the Federal acquisition system 
delivers the best value to taxpayers. OFPP must take action to 
ensure that such blatant violations of contract law and 
regulation will not be tolerated, particularly as we face an 
unsustainable national debt burden.
    The Federal acquisition system is under tremendous stress. 
Between fiscal years 2001 and 2011, acquisition spending by the 
Federal Government expanded by 140 percent, from $223 billion 
to $536 billion. Procurement actions are also becoming 
increasingly complex. Despite the increased workload and the 
complexity of procurement actions, the acquisition workforce 
has remained flat. This perfect storm has only increased the 
risk that there will be bad acquisition outcomes and that 
taxpayer dollars will be wasted.
    As President Reagan said, ``personnel is policy.'' It only 
makes sense that we will get the best acquisition outcomes if 
the workforce is top-notch. As the unfolding GSA scandal makes 
clear, training and accountability of our acquisition workforce 
must be a top priority.
    OFPP plays a critical role in addressing acquisition 
workforce challenges. It must ensure that we have a well 
trained acquisition workforce. This is crucial to keeping pace 
with the Federal Government's increasingly complex procurements 
and ensuring good outcomes for taxpayers.
    The acquisition process must also be grounded solely on 
providing the very best value to American taxpayers, and that 
is why I have fought over the last 2 years to stop the 
Administration's unfortunate efforts to inject politics into 
the procurement system.
    Last year, when word leaked that the Administration was 
considering an Executive Order that would require Federal 
agencies to collect information about campaign contributions by 
potential bidders as a condition of competing for Federal 
contracts, I opposed this effort, along with a bipartisan group 
of my colleagues. I also authored a provision that became law 
in last year's Defense Authorization Act, and similar 
legislation was included in the omnibus appropriations bill to 
make abundantly clear that politics has no place in the 
procurement decisionmaking process.
    Incredibly, however, the Administration has proposed in its 
fiscal year 2013 budget to end the prohibition that Congress 
included in the omnibus appropriations bill just last year. No 
good can come from such an effort. Indeed, it would discourage 
contractors from participating in the Federal marketplace.
    I hope that we can get assurances from the nominee that he 
will actively oppose such an effort.
    I know that Mr. Jordan is relatively new to the area of 
Federal Government procurement. He has served in important 
roles at the SBA and OMB. I look forward to hearing from him 
today on how he would address the challenges faced by the 
Federal acquisition system if confirmed as the next OFPP 
Administrator.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Let me now say for the record that Joseph Jordan has filed 
responses to a biographical and financial questionnaire, 
answered pre-hearing questions submitted by the Committee, and 
had his financial statements reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made part of the hearing record with the exception of the 
financial data, which are on file and available for public 
inspection in the Committee offices.
    Our Committee rules require, I think you know, Mr. Jordan, 
that all witnesses at nomination hearings give their testimony 
under oath. So I would ask you to please stand and raise your 
right hand.
    Do you swear that the testimony that you are about to give 
to the Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God.
    Mr. Jordan. I do.
    Chairman Lieberman. Thank you.
    You may now proceed with your statement and introduce all 
of the adorable family members that you have with you.

 TESTIMONY OF JOSEPH G. JORDAN \1\ TO BE ADMINISTRATOR, OFFICE 
 OF FEDERAL PROCUREMENT POLICY, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Jordan. Thank you, Mr. Chairman, and thank you, Senator 
Collins, and Members of the Committee. I am honored to appear 
before you today as President Obama's nominee to serve as the 
Administrator for Federal Procurement Policy at the Office of 
Management and Budget.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jordan appears in the Appendix on 
page 25.
---------------------------------------------------------------------------
    I am very grateful to have several members of my family 
with me this morning, supporting me today as they have 
throughout my life. And, with your indulgence, I would like to 
introduce a few of them briefly: My incredible wife, Sarah; my 
10-month-old son, Carter--at least until Carter's Cheerios run 
out, and then he will be making an exit; my amazing mother, 
Joan Jordan, representing my wonderful family; my mother-in-
law, Victoria Carter; and my cousins, Ann and Kevin Woelflein.
    And, it is also very moving to see many other friends and 
colleagues from SBA, OMB, and elsewhere here to support me 
today.
    I am very blessed to have such a supportive and wonderful 
family and group of friends.
    I feel deeply privileged that the President has nominated 
me to lead the Office of Federal Procurement Policy. It plays a 
critical role in helping make our government more efficient, 
effective, and affordable. With more than $500 billion going to 
Federal contracts every year--about $1 out of every $6 spent by 
the Federal Government--it is imperative that our acquisitions 
produce the best possible results for the American people.
    I have seen in both my private sector and public sector 
experiences what a positive effect improvements in the 
contracting process can have on an organization's bottom line.
    As a taxpayer, I am pleased by the attention this 
Administration, this Committee, and Members of Congress have 
given to improving the acquisition system. I am equally 
heartened by the progress agencies have made over the past 3 
years to get control of the unsustainable contract spending 
that has plagued our system for decades.
    I appreciate the work of this Committee to drive increased 
transparency, accountability, and savings in the acquisition 
process and also to develop and empower our acquisition 
workforce. We must ensure that the dedicated men and women of 
our acquisition workforce have the policies and tools they need 
to build upon and sustain this progress while consistently 
achieving the best value from our contract actions.
    If confirmed as Administrator, I intend to work with 
Congress and the agencies to immediately address the following 
three priorities:
    First, buying smarter. Agencies' ability to meet their 
missions in a constrained budget environment requires that they 
take full advantage of proven and innovative strategies for 
cutting costs and getting better results. We must leverage the 
government's buying power, increase competition, reduce high 
risk contracts, and continue to deliver higher quality goods 
and services to agency personnel.
    I am encouraged by several initiatives that the government 
has undertaken in the area of strategic sourcing, both at the 
governmentwide and agencywide levels, to secure better prices 
and reduce the proliferation of duplicative contracts for 
common needs, such as office supplies and overnight delivery 
services. We must accelerate the application of lessons learned 
from these experiences and augment them with private sector 
best practices so that agencies may increase savings for many 
of their other goods and services.
    Second, building the right supplier relationships. We must 
make it a top priority to do business with those contractors 
who are committed to delivering best value to the taxpayer. To 
this end, we must redouble our effort to document and share 
past performance information so that the intended benefit of 
motivating and rewarding good performance is fully realized.
    We must also continue our push to maximize contracting with 
small and disadvantaged businesses. Given my work over the last 
3 years at the Small Business Administration, I have a real 
passion for ensuring that the government improves our 
utilization of small businesses and allows agencies and 
taxpayers to benefit from the win-win that occurs when they 
contract with small businesses.
    Just as it is important to reward high performing 
businesses, it is also important to make sure taxpayer dollars 
are not put at risk in the hands of contractors who are not 
responsible sources. Our agencies must be prepared to give 
appropriate consideration to suspension and debarment to fight 
the waste and abuse of bad actors and maintain the public's 
trust in our system.
    Third, strengthening the acquisition workforce. The 
acquisition workforce is the backbone of our acquisition 
system. Their skills and good judgment are inextricably tied to 
our government's ability to buy needed goods and services and 
deliver effective results. If confirmed, I will work closely 
with agency Chief Acquisition Officers and Senior Procurement 
Executives and our Federal training institutions to identify 
training needs and ensure that we are making the appropriate 
training investment in all of our acquisition professionals.
    This includes not just our essential contracting officers, 
but also contracting officers' representatives, who are 
responsible for contract management, and program and project 
managers, who are instrumental in acquisition planning and the 
development of contract requirements.
    All of our efforts must be guided by an understanding that 
meaningful collaboration is the key to success. Improved 
interactions between Federal agencies, industry, and other 
stakeholders allow the government to better understand the 
marketplace and contractors to perform the due diligence 
necessary to offer the best solutions to support agency 
missions.
    Finally, we must remain mindful of the relationship between 
Federal employees and contractors. Federal employees are the 
lifeblood of our government, and contractors bring important 
experience and innovation to support our employees in meeting 
their missions. We must maintain the right balance between the 
sectors that best protects the public's interest and serves the 
American people in a cost-effective manner.
    Thank you again for allowing me to appear before you today. 
If I am confirmed, I look forward to joining with the talented 
leadership of OMB and the dedicated staff of OFPP in partnering 
with this Committee and other Members of Congress to fulfill 
our shared commitment to an acquisition system that delivers 
the cost-effective, timely, and quality service that our 
citizens need and deserve.
    Mr. Chairman and Members of the Committee, I will be 
pleased to answer any questions you may have.
    Chairman Lieberman. Thanks very much for your statement.
    I will start now with the standard questions that we ask 
all of our nominees.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Jordan. No, sir.
    Chairman Lieberman. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Jordan. No, sir.
    Chairman Lieberman. And finally, do you agree, without 
reservation, to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Jordan. Yes, sir.
    Chairman Lieberman. Well done so far. We will start with 
the first round of questions, limited to 7 minutes.
    Mr. Jordan, as Senator Collins referred to in her opening 
statement, we have just come through this really infuriating 
episode of GSA misbehavior. It is particularly troubling, in 
what we know about the Western Regions Conference, because GSA 
obviously works closely with OFPP, which you have been 
nominated to head, and, therefore, is supposed to be setting a 
model for using contract dollars in the most efficient ways 
possible.
    One of the less salacious--but for us, as troubling--
aspects of the story from the Western Regions Conference was 
that GSA actually violated a number of basic procurement rules 
in planning the conference. For example, one employee disclosed 
a competitor's proposal to another contractor. There were 
violations of rules related to small business set-asides and 
inappropriate use of sole-source contracts.
    In other words, there was, bottom line, a flagrant 
disregard for the rules that GSA and OFPP are supposed to be 
enforcing.
    I wanted to invite you generally to respond, to give us 
your reaction to the GSA scandal, and also to comment, if you 
will, on what I would imagine may be a crisis of confidence in 
other Federal agencies in their attitude toward GSA and what 
you, as the head of OFPP, think you can do about it.
    Mr. Jordan. Absolutely. First of all, what happened with 
the Public Buildings Service Conference is totally unacceptable 
as is any waste of taxpayer dollars. It is my understanding 
that with regard to the inappropriate contracting practices 
that you reference, they are all currently illegal.
    So, what I would want to do from day one is partner with 
Acting Administrator Tangherlini in his top-down review of GSA 
because, as you said, OFPP and GSA have to be strong partners 
in a number of areas. I would also look into whether any 
additional guidance or legal clarification is needed to prevent 
these practices in the past. And then, I would use the OFPP 
Administrator position, if confirmed, to work with all the 
agencies to ensure that there is a culture of respect for 
taxpayer dollars and adherence to these rules.
    Chairman Lieberman. We will be following that closely, and 
I appreciate that answer.
    Let me go to a different side of your responsibilities.
    Last fall, the Government Accountability Office (GAO) 
reported to our Committee on the use of suspension and 
debarment procedures as a tool to keep Federal contracts out of 
the hands of bad actors. The results of the GAO inquiry were, 
frankly, disheartening. Over a 5-year period, a number of the 
major contracting agencies, including the Department of Health 
and Human Services, the Department of Labor, the Department of 
Housing and Urban Development, and the Federal Emergency 
Management Agency, had taken no suspension and debarment 
actions at all, and most other agencies sent fewer than 20 
names to the Excluded Parties List over that same 5-year 
period.
    On the eve of the hearing that our Committee held on 
suspension and debarment last November, OMB issued a memorandum 
to all agencies, outlining steps that it expected them to take 
to improve their suspension and debarment practices.
    I wanted to ask what you would do to follow up and make 
sure that agencies are taking these actions. Also, the memo did 
not give agencies a deadline for following through, and I 
wanted to ask you whether OFPP should follow up and impose a 
deadline for a response.
    Mr. Jordan. Well, as I said in my opening statement, I 
truly believe that suspension and debarment can be a very 
important tool in protecting taxpayer dollars when there is 
evidence of a bad actor or waste, fraud, and abuse. As evidence 
of that, when I was at SBA, we developed a three-pronged fraud, 
waste, and abuse prevention continuum, including up-front 
certification, ongoing surveillance and monitoring, and robust 
and timely enforcement that was actually praised as a best 
practice by the GAO.
    In that robust and timely enforcement category, my office 
worked very closely with our general counsel and our suspension 
and debarment official to make sure that we were, as 
appropriate, referring firms for suspension and debarment and 
referring firms to the Department of Justice for prosecution. 
An outcome of that, for example, was the suspension of a very 
high profile government contractor, and it sent a signal that 
we were taking this very seriously.
    The very positive outcome of these things, secondarily, is 
that it moves you toward a place where we all want to be, which 
is not just punishing the bad actors, but preventing people 
from thinking they can try this in the first place.
    So, what would I do if confirmed? I would follow up with 
the agencies, especially on the point of naming a senior 
accountable official for suspension and debarment because I 
think that is important. You need the high level focus to make 
sure that this is happening and that it is viewed as a very 
important function. Then I would ask for further data on how 
they are looking at these actions and what considerations they 
are taking into effect when making or not making 
recommendations to suspend or debar.
    Chairman Lieberman. That is very important. To say the 
obvious, the rules are there for a reason. It sometimes can be 
awkward or inconvenient to enforce them, but if we do not 
enforce them, then it encourages the bad actors to continue and 
does not reward the good actors.
    I appreciate what you just said about trying to take action 
to prevent bad actors from getting contracts in the first 
place.
    One of the other things that GAO pointed out was that the 
past performance reviews that contracting officers are supposed 
to fill out are completed only for a small number of awards, 
and contracting officers do not always consult the reviews that 
have been filled out.
    I do not know if you are aware of that, but whether you are 
or not, I want to ask you for a response on what you think OFPP 
should do, if you are confirmed, to get that system of the past 
performance reviews to be the rule and not the exception.
    Mr. Jordan. Absolutely. I think past performance is 
critical in making good pre-award decisions. I think there has 
been some good progress in the creation of the Past Performance 
Information Retrieval System, but a database is only as good as 
the quality of data within it and people's utilization of it.
    So, this is the training that I talked about, which I think 
we specifically need to push, to make sure contracting officers 
understand their duties at the end of a contract to enter in 
how that contractor did on that contract with fair, accurate, 
and honest evaluations. Then, pre-award, we need to make sure 
that contracting officers are going to that system and looking 
at offerers or potential awardees to make sure that they do not 
have any red flags, or looking for really good contractors to 
reward them for their great past performance.
    Chairman Lieberman. Thank you. My time is up on this round. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    As the Chairman mentioned, the position as Administrator of 
OFPP is one that is not well known to the public at large, but 
it is in fact an extremely important leadership position within 
the Federal Government and the Federal procurement system in 
general. It is crucial that the Administrator has a strong 
knowledge of and experience with the Federal procurement 
system. The leader of the office must also have credibility 
with a broad range of stakeholders.
    And, having followed procurement issues for many years, for 
even decades, I know how challenging this position is, and I 
also have personally known the last probably five, or even 
more, OFPP Administrators. I would mention that your most 
immediate predecessor had more than 20 years of experience in 
the Federal contracting world and had been a professor who 
actually taught procurement law.
    Now, some Senators have raised questions about whether or 
not you have sufficient experience for this job, particularly 
given the qualifications of the last five of your predecessors. 
So, that is an issue that I want you to address right off at 
this hearing, and that is: Despite obviously being a very 
bright individual who cares deeply about these issues and about 
serving government, what do you say to critics who question 
whether or not you are qualified for a position that requires a 
lot of technical expertise?
    Mr. Jordan. Well, thank you for that question, Senator.
    I, too, share your respect and admiration for my 
predecessor, Administrator Dan Gordon. We had a great 
relationship while I was at the SBA, and I am honored to be 
nominated to succeed him.
    Why do I think I have the appropriate qualifications and 
experience for this job, especially at this time, which, as you 
note in your opening statement, is particularly crucial given 
all of the forces being brought to bear on the acquisition 
system? I think that my experiences in both the private sector 
and the public sector do make me uniquely qualified for the 
Administrator position right now.
    In the private sector, I worked with various companies, 
State governments, and other entities on procurement and supply 
chain management issues, specifically strategic sourcing and 
other ways to buy smarter and use data-driven analytics to 
lower costs and improve value. That is a big element that I 
think I can bring to bear here.
    I then was privileged to join the SBA and oversaw small 
business contracting for the entire Federal Government, running 
several of the set-aside programs that drove almost $100 
billion in prime contracts to small businesses. We achieved the 
largest 2-year increase against our goal in more than a decade, 
as we were simultaneously reducing fraud, waste, and abuse.
    These are the types of things that I would want to drive, 
if confirmed.
    Also, at SBA, I led a team of several hundred acquisition 
professionals, both in the policy development side as well as 
on the front-line execution side with the contracting officers. 
So, I got to really know what makes good policy that is 
executable and what makes good operational incentives to get 
that policy executed on the front line. I also understand the 
challenges our contracting officers face and, more importantly, 
the solutions on how to overcome those challenges.
    I worked in a collaborative and productive way with all the 
stakeholders. As you said, this position does have a key 
outward-facing role, communicating with all the various 
stakeholders to make sure the system is fair, efficient, and 
effective.
    And last, I had a very positive working relationship with 
Congress, and even this Committee, whether it was passing the 
Small Business Jobs Act that provided all sorts of new and 
positive tools for small business contractors or coming up and 
working together with testimonies and briefings and all those 
sorts of things.
    So, I think that the amalgam of all of those experiences 
lends itself quite well to the Administrator of the OFPP 
position at this crucial time.
    Senator Collins. Thank you. I think that is a very helpful 
recitation to get on the record.
    I, personally, having studied your background, believe that 
you are qualified for the position. I am more concerned about 
some policy issues and what your position would be on those 
policy issues, but some of my colleagues have raised questions 
about your experience, particularly compared to your immediate 
predecessor.
    As I mentioned in my opening statement, I am determined to 
do everything I can to protect the integrity of the Federal 
procurement system, and that is why I was so alarmed last year 
to see a draft Executive Order from this Administration that 
actually proposed to inject politics into the procurement 
system by requiring would-be bidders to disclose their 
political contributions. That was just astounding to me.
    It would have sent a message to contracting officials that 
somehow this should be a factor in their decisionmaking when 
they are awarding Federal contracts. After all, why else would 
you require it to be reported?
    It would also chill the constitutional rights of 
contractors to make political contributions. They would assume 
that if they are supporting Republicans and it is a Democratic 
Administration, or vice-versa, that they are somehow going to 
be disqualified from bidding.
    And, it would potentially shrink the number of contractors 
who are interested in even doing business with the Federal 
Government.
    So, what I am seeking from you today is a very clear 
statement that you will oppose any such efforts to require 
Federal agencies to collect political contribution information 
from government contractors. Will you oppose any such effort?
    Mr. Jordan. Well, Senator Collins, I also appreciated your 
giving me the opportunity before the hearing to put down in 
writing and send to you my position, which is absolutely clear, 
I think----
    Senator Collins. I will tell you I did not find that 
reassuring enough, so----
    Mr. Jordan. Well, let me say here that--as clearly as 
possible--I believe there is no place for politics in the 
acquisition system. You have my full assurance that, if 
confirmed, I am fully committed to ensuring that the 
acquisition process is a meritocracy, that we are upholding 
integrity and transparency at all times, and that no political 
considerations are allowed to be brought to bear on Federal 
contracting decisions at any point during the process, and you 
have my full commitment to that.
    Senator Collins. But will you oppose the issuance of an 
Executive Order that would seek to require that political 
contributions be reported as part of the bidding process?
    Mr. Jordan. It is hard for me to comment on a hypothetical, 
having not----
    Senator Collins. Well, it is not a hypothetical because the 
Administration was on the verge of doing just that last year. 
We have the draft Executive Order.
    Mr. Jordan. I am not aware of any efforts to issue an 
Executive Order on this topic at this time.
    If asked for my counsel by the President, who issues 
Executive Orders, I would say that anything we do in this arena 
needs to have at the very top of the priority list, as an 
absolute cornerstone, the principle that politics cannot play a 
role; political influence cannot play a role in the acquisition 
process. And, I would say that very clearly, and I would 
advocate on behalf of that belief very strongly.
    Senator Collins. My time has expired.
    Chairman Lieberman. Thanks, Senator Collins.
    I agree totally with Senator Collins on this issue. 
Somebody may have thought that this would have brought the 
contributions into the light of day and somehow, thereby, purge 
the politics from the process, but I think it sent exactly the 
opposite message. I hope that Executive Order does not see the 
light of day, and I hope you will be effective in your advocacy 
to the White House on that point.
    Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Well, thank you, Mr. Chairman.
    And, I am sorry that your son, Carter, is not here to hear 
your testimony and my questions. I am sure it would have been a 
memorable experience for him.
    Mr. Jordan. I will make him watch online right before 
bedtime. [Laughter.]
    Senator McCain. Please do that, maybe several times. I 
guarantee it will put him to sleep.
    Chairman Lieberman. I was going to ask you, Senator McCain: 
Have you ever slept like a baby?
    This is a running routine we do.
    Senator McCain. I will not harass the witness with that old 
chestnut.
    Mr. Jordan, I am not involved in the issue that Senator 
Collins and Senator Lieberman just raised, but I think you have 
to be more definitive on this issue. It is a very important 
issue to us, and I hope you will consider a more definitive 
answer on it. And, I also understand the pressures that you are 
also experiencing.
    Senator Coburn and I objected during the stimulus package 
to the so-called wine train in California. Are you familiar 
with that issue?
    Mr. Jordan. Yes, sir.
    Senator McCain. I want to discuss with you a little bit 
about that issue and its implications in your new job. As you 
know, the wine train in Napa Valley was originally scheduled to 
cost $64 million. Now it is $79 million.
    Information has come out from those who were involved in it 
that, I guess in their words, the Napa Valley Wine Train 
continues to be a sinkhole, gone from $64 million to $79 
million, and the people involved in it have now said that it 
was a gold mine for them because it was a no-bid contract.
    ``Allegations that the government overpaid by $10 million 
surfaced in pretrial testimony in the 2010 lawsuit, which 
involved a contract dispute between Suulutaaq and a 
construction management firm. Greg Poynor, former Suulutaaq 
CEO, testified that after the company had obtained the contract 
for the Wine Train job, it subcontracted heavy construction 
work to the Kiewat Corporation. The Kiewat officials concluded 
that a competitive bid would have been $10 million less than 
what the government had agreed to pay Suulutaaq.'' \1\
---------------------------------------------------------------------------
    \1\ The Bay Citizen article referenced by Senator McCain appears in 
the Appendix on page 100.
---------------------------------------------------------------------------
    So, obviously, it is an outrageous rip-off of the 
taxpayers' dollars, not to mention the project alone, but the 
cost escalation.
    In March 2011, you testified before the Senate Indian 
Affairs Committee that you were ``proud'' of the direction that 
the new regulations were headed.
    Unfortunately, GAO's recent report uncovered problems with 
the SBA's new regulations. For example, Alaska Native 
Corporations (ANCs) are now required to perform 40 percent of 
the work in the contract. GAO says SBA has no way of knowing if 
an ANC enters into a ``joint'' venture and subcontracts a 
majority of the work to a large non-Native corporation.
    GAO recommends SBA use a new database to track contract 
dollars to go to ANCs. SBA responded a new database might not 
be ready until 2013.
    In January, GAO said SBA had not updated its standard 
operating procedures for SBA district offices to implement the 
new regulations. Has that occurred yet?
    Mr. Jordan. I am not aware, but I can check with my 
colleagues at SBA.
    Senator McCain. GAO has called upon OMB's Office of Federal 
Procurement Policy, the very office that you are nominated to 
head, to amend Federal acquisition regulations to require 
Federal agencies to closely document compliance with the new 
SBA regulations, including how much work is actually performed 
by the ANC company and their non-Native subcontractor.
    Do you agree with GAO's recommendations and will you 
implement them in a timely fashion?
    Mr. Jordan. I have not seen those recommendations, 
specifically. That being said, I certainly agree that we need 
to make sure that the regulations that were created are being 
followed, and that is going to require looking at the data, 
making this part of 8(a) firms' annual reviews, and things of 
that nature. So, I absolutely would commit to, if confirmed, 
partnering with SBA to ensure that is implemented.
    As you were talking, you raised several of the things that 
are on the priority list. In this time of flat and declining 
budgets, we have to drive costs down, which means buying 
smarter and also, in certain instances, buying less.
    We have to increase competition. When I was at SBA during 
the Recovery Act, we issued industry class waivers in the 8(a) 
program so that agencies could both utilize that program and 
utilize competition.
    And, we have to increase transparency in our use of data.
    So, I do agree with all of those points.
    Senator McCain. Well, I would like to hear from you, 
perhaps in writing, specifically what is being done about these 
ANCs. The money that is now going to them has increased to $4.7 
billion in 2010 alone, and they call themselves small business 
when it is $4.7 billion compared to $500 million in 2000 and 
$2.1 billion in 2005.
    And, the thing that is egregious about this, Mr. Jordan, is 
the ANC represents fewer than 6 percent of all small businesses 
enrolled in the 8(a) program, but they receive almost one-third 
of the contract dollars. What that does, frankly, is squeeze 
out small businesses all over America on behalf of a group of 
Native American entities in Alaska. That is not right. That is 
unfair to small businesses all over America.
    Now, you are going to be involved in this in your new job.
    So, we are not talking about chicken feed here. This Wine 
Train scandal--and it is a scandal--is just, again, one of the 
most visible examples of what is going on here.
    One of the problems is that Federal contracting officers 
use the no-bid contracts for ANCs because they want to expedite 
a project and because it is a quick and easy way to meet small 
business contract quotas. Now, that is a mind-set that has to 
be changed.
    So, you were the top SBA official for government 
contracting, and you oversaw the SBA 8(a) contracting programs 
for ANCs--is that correct?
    Mr. Jordan. That is correct.
    Senator McCain. And, what are your conclusions?
    Mr. Jordan. I think that it is critically important that 
the SBA, with OFPP's help and partnership, executes and 
oversees the 8(a) program officially and effectively as 
intended by Congress.
    Senator McCain. Do you think they are doing that?
    Mr. Jordan. I think that we have made strides. And, when I 
said I was proud of our progress, that is what I was referring 
to--the first comprehensive regulatory revision in more than a 
decade while I was there. We did tighten some of the loopholes 
around joint venturing and increase the reporting requirements 
to make sure that we had the information needed to do proper 
and effective oversight.
    But, as you note, first you have to give everyone the 
tools, and then you have to make sure that they are using them. 
That is not a one-time thing. That is an ongoing thing.
    So, you certainly have my commitment to work with SBA and 
to work through OFPP, if confirmed, with the entire community 
to make sure that the programs are being executed and overseen 
effectively and efficiently.
    Senator McCain. Well, also, you might draw a conclusion as 
to whether ANCs that got $4.7 billion in contract dollars 
qualify as small businesses.
    I thank you, Mr. Chairman and Senator Collins.
    Chairman Lieberman. Thanks, Senator McCain. Senator Begich.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Mr. Chairman, thank you very much.
    As you can imagine, I take exception to the comments by my 
dear friend from Arizona.
    The ANCs always get picked on by a few Senators on a 
regular basis, which I would challenge. For example, an ANC 
that I met with today--1,000 employees in seven different 
States--52 percent of their employees are veterans, which I 
think is a pretty good thing, seeing that we have the highest 
unemployment of veterans from Afghanistan and Iraq and almost 
one out of three are unemployed.
    I hear about the claims--and there are situations.
    And, I think I remember a hearing you were at, and you were 
grilled--this is repeat two, to be very frank with you--on 
8(a)s. You actually had a very good response. You talked about 
the new regulation that had been put in place, that had just 
been implemented, and how you were working with 8(a)s to ensure 
that they had the training and the knowledge of the new 
requirements. That is less than maybe a year old, maybe a 
little bit more.
    And so, you took something that actually the 8(a)s were 
asking for, for a decade or more, that is, for the SBA to 
actually do their job, to actually put resources into helping 
them identify and drive out the bad actors. You did that. You 
actually took it on. And, I commend you for that.
    And, I do not agree with this constant rant about ANCs, 
which, yes, represent 6 percent of the small businesses, but 
they also represent tens of thousands of people.
    I can go through the success. Why does the Army Corps of 
Engineers like the 8(a)s? Because they can rapidly deploy in an 
environment that most people do not understand, in developing 
work in Alaska, for example.
    So, I can go on for 50 minutes on 8(a)s and the success of 
them, how they have taken parts of Alaska, which are not 
supported necessarily by a lot of Bureau of Indian Affairs 
money--we get some, but not like the tribes in the lower 48--
because they have become self-sufficient. They employ their own 
people. We have Harvard graduates and Georgetown graduates who 
come back to Alaska to work in small villages because of the 
success of the 8(a)s, and they actually make a livable wage 
rather than living in poverty or living on the government dole.
    This is my rant. I am venting to you because the other 
Senator has left the room.
    And, I want to make it very clear that you have tried to 
clean up the old battles at SBA. Am I incorrect on this issue 
of ANCs?
    You have actually tried to help rectify some of the 
concerns that I have since my 3 years here and they have had 
for the last decade or more. Is that accurate?
    Mr. Jordan. Yes, sir. I think everyone on both sides of the 
issue agrees that there is no room in that program for fraud, 
waste, or abuse, and bad actors.
    Senator Begich. In any Federal Government program, like 
some of our big contractors that walk away with billions of 
dollars and then they get a slap on the wrist and get to do 
more contracting--I think that is the point that the Chairman 
and Senator Collins brought up, how some of these contractors 
get to come back for repeat business and rip off this 
government in the ``gabillions.'' And, that is my word. That is 
an Alaskan word.
    Mr. Jordan. I had the privilege of visiting rural Alaska 
and seeing some of the communities. And, there is, as you well 
know, a difference between the individually owned 8(a) 
program----
    Senator Begich. Absolutely.
    Mr. Jordan [continuing]. And the entity-owned 8(a) program.
    Senator Begich. Some people lack that understanding around 
this place, just so you know, but go ahead.
    Mr. Jordan. And so, when it comes to the statutory 
provisions afforded to the Native 8(a) entities through the 
Alaska Native Claims Settlement Act, that is subject to the 
will of Congress, but I think that the oversight and execution 
of the programs are absolutely our responsibility.
    When we did the regulatory revision for the 8(a) program, 
which was not exclusively focused on Native entities, it was 
focused on the program overall.
    Senator Begich. Right.
    Mr. Jordan. We received more than 2,500 public comments, 
which were overwhelmingly supportive. SBA has now stood up 
those regulations and is in the process of executing them. It 
will be, like with any program, an ongoing process to make sure 
that they are operationalized and they are being executed and 
the program is being overseen effectively.
    And, as I said before, I am absolutely committed to 
continuing my work to make sure that program and any 
contracting program is executed and overseen absent fraud, 
waste, and abuse.
    Senator Begich. And there is no difference, for example, 
between the disadvantaged businesses, the veterans' businesses, 
which have people who claim to be veterans who are not 
veterans, who take advantage of the program--I mean, we are big 
organization, the Federal Government, $3 trillion plus, and 
people are going to take advantage of it, big contractors and 
small contractors.
    And, part of the job that you have put on your list of 
priorities is to go after those guys, to make sure we have a 
better and more efficient system. Is that fair?
    Mr. Jordan. That is absolutely true for all of the program.
    Senator Begich. I did not mean to get you in the crosshairs 
on the issue of 8(a)s, but let me ask you just in general.
    I mean, you understand the value of the 8(a) program. And, 
do you think it is successful overall, recognizing there are 
issues that come up off and on, across the board--when I say 
8(a)s, they are not just ANC (8a)s; there are others.
    Mr. Jordan. That is right.
    Senator Begich. But is that a fair statement, that it has 
increased the capacity for minority, disadvantaged businesses 
to participate?
    Mr. Jordan. I think the 8(a) program is very valuable and 
has provided clear benefits to socially and economically 
disadvantaged small businesses, both in the individual-owned 
category and the Native-owned category.
    Senator Begich. Anywhere in the program?
    Mr. Jordan. I think like any program, we can improve, and I 
would be committed to helping SBA in improving that.
    Senator Begich. Very good. I have a feeling you will be 
back here again, grilled on this, and I will find myself 
probably here talking about it, but let me ask you another 
question.
    I know one of the things you have put in your priorities is 
trying to create some efficiencies in purchasing.
    I know in Alaska we had a wholesale food supplier, Linford 
Wholesale Foods, and they warehoused and delivered the food for 
the military in Alaska. Now that has gone to, about 4 or 5 
years ago, a general contract that services multiple bases 
around the country.
    With shipping products to Alaska, you cannot just do 
overnight in some cases. In the sense of fresh products, 
sometimes you can not get it out to some of the more remote 
base installations.
    How will you ensure not only efficient pricing, but the 
quality of the product so you do not have military folks 
getting product that is substandard because we have this 
general contract that has also cut out small businesses?
    Mr. Jordan. I do think that the government needs to better 
leverage its buying power and get better pricing across the 
board, especially in commodity areas. But I also absolutely 
believe--and I have seen in the private sector and the public 
sector context--that this can be balanced with the other 
priorities, such as maximizing small business utilization.
    A great example, Congress, in September 2010, passed the 
Small Business Jobs Act, and Section 1331 of that Act says 
agencies can now do task order set-asides off of those larger 
multiple award contracts. So, you get the efficiency of having 
some of these requirements----
    Senator Begich. Price guarantees.
    Mr. Jordan. Exactly, but you can still make sure that small 
businesses are the ones getting those task orders when 
appropriate.
    In terms of making sure that you have the right efficiency 
and delivery, terms like those that you spoke of? Well, that is 
when you have to make sure that you are not just bundling a 
bunch of things together, but you are being strategic in the 
way that you are looking at those commodities and making the 
right multiple award contracts for that commodity or that group 
of commodities.
    Senator Begich. I am looking forward to having you 
appointed. I will be anxious to work with you in that regard 
and then also, obviously, the 8(a) issue.
    I am glad Senator Collins brought up experience. What I am 
looking for is someone who has a little ambition, someone who 
is anxious to move forward. Sometimes you get people who have 
been bureaucrats too long, and the result is nothing changes.
    What you did at SBA, people were talking about for a 
decade. You came in there in a very short period and made some 
changes.
    So, I know there are some that always want to see the big, 
thick resume. But to be frank with you, I want someone 
beginning their career in a variety of fields, who is anxious, 
motivated, and wants to see things done. So, I am looking 
forward to supporting you.
    Mr. Jordan. Thank you, sir.
    Chairman Lieberman. Thank you, Senator Begich.
    Just a few more questions, Mr. Jordan.
    As you know, when an agency hires a contractor through a 
cost-reimbursement contract, a part of what the government pays 
may go toward compensating the executives of the company. But 
there is a statutory cap on the amount that can go to executive 
compensation, and that cap is based on a formula tied to 
executive compensation in large publically traded companies. 
OMB, as I am sure you know, is required by statute to adjust 
the cap each year, using the formula.
    When Congress enacted the formula in 1997, I do not think 
we foresaw how sharply executive compensation would rise nor 
could we have dreamed that pursuant to the statute that now is 
law, the cap on contractor executive compensation has now risen 
to over $763,000 a year.
    Last year, as I am sure you know, the President proposed 
abolishing the formula and replacing it with a cap that is 
equal to the pay rate for the government's most senior 
executives, which is about $200,000. Our Committee has heard 
some concern that this amount would make it hard for the 
government to attract some highly skilled firms, such as cyber 
experts, to work for the government. But obviously, the current 
statutory formula is totally out of whack and totally 
unacceptable to the public.
    So, I wonder if you have any thoughts about how we can work 
our way, in a sensible way, out of this dilemma.
    Mr. Jordan. Yes, sir, absolutely. I think that contractors 
should be able to pay their employees whatever they want. It is 
just that the government should not have to reimburse them for 
levels in that amount.
    I fully agree with what Acting OFPP Administrator Lesley 
Field said recently when OMB was forced to issue those 
increases--that it was a begrudging, but statutorily required, 
act to increase the cap above $750,000.
    I am absolutely committed to working with you, this 
Committee, and Congress, if confirmed, to figure out what the 
right level is. It may be above the $200,000 level that was 
previously proposed. I think most people agree it should not be 
at $763,000. If exceptions are necessary for certain scientific 
and technical experts, I would be happy discussing and 
exploring that, but I share your concern, and you would 
absolutely find a willing partner in me to help figure out what 
the best solution is.
    Chairman Lieberman. I appreciate that. If you are 
confirmed, we should work on that.
    It seems to me based on what you have said, and I agree 
with this, that we may want to set a much lower cap but create 
a process for seeking exceptions to that cap in particular 
cases, which is to say, have an appeal to be made to some 
central body in the government to make the case that in those 
cases the cap should be waived.
    I have a few more questions, but I am going to submit them 
for the record, and I will yield now to Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I just have a couple more questions and will submit the 
rest of mine as well, especially since you covered some very 
important issues regarding debarment and suspension that our 
Committee has been following. I want to associate myself with 
the Chairman's questions in those areas and hope that we can do 
a better job of ensuring that the government only does business 
with responsible bidders.
    I want to turn to the issue of interagency contracting. In 
September of last year, the former OFPP Administrator issued 
guidance on business case requirements for interagency 
contracting vehicles. At that time, he said that it is critical 
that the Federal Government leverage its buying power to the 
maximum extent as well as achieve administrative efficiencies 
and cost savings, but he went on to caution that too often 
agencies establish new overlapping and duplicative contracts 
for supplies or services because agencies have not adequately 
considered the suitability of existing interagency contract 
vehicles.
    What is your reaction to that?
    Do we have the right mix of interagency contracting 
vehicles?
    How can we avoid this kind of duplication?
    And, what do you see as OFPP's role?
    Mr. Jordan. Absolutely, I agree with everything that you 
relayed that Administrator Gordon had said.
    This is one of those areas where, in a private sector 
context, I absolutely can see how maximizing the use of 
interagency contracting is a no-brainer because you are going 
to better leverage the spend base of the entire government, 
drive prices down, and get better quality and service for the 
government.
    However, what I learned is that in its application within 
the government there are challenges because, yes, agencies are 
saying they want more use of interagency contracts, but they 
want their agency to be the lead on the interagency contract. 
So, you end up with, as you said, duplicative contracts in an 
area that should exist to reduce duplication.
    Senator Collins. Right.
    Mr. Jordan. When you look at just one agency, all too 
frequently we see a bunch of contracts for the same thing, even 
with the same vendor. So, we need to get agencywide, 
enterprisewide sourcing right.
    When you look across the government, there are a lot of 
commodity areas where we are all buying the same things, and we 
should be doing so in a thoughtful way and leveraging our 
buying power. But that does not mean everybody setting up their 
own contract available for interagency use.
    So, what I would do is take that business case process you 
talked about very seriously as well as I would like to 
inventory the interagency contracts across the government and 
hopefully post those in a place so that contracting officers 
and agencies very quickly and easily can see when there is a 
vehicle that already suits their needs. They do not need to go 
through the process of setting up a new one.
    Then, that frees up their time to focus on the increasingly 
complex requirements for other contracts that both you and the 
Chairman referenced in your opening statements.
    Senator Collins. I think your idea for some sort of Web 
site that could easily be accessible so that agencies could, at 
a glance, see what is already out there would be very helpful. 
GSA supposedly does that, and the multiple award schedules in a 
way are part of that.
    Let me do one follow-up question on this whole multi-agency 
contract issue. In September of last year, I think in that same 
memorandum, OFPP required business cases for Governmentwide 
Acquisition Contracts (GWACs) for information technology (IT) 
to actually be submitted to OMB. But for other cases of Multi-
Agency Contracts, such as blanket purchase agreements and 
agency-specific contracts, the OFPP memorandum states that OFPP 
reserves the discretion to require the agency to submit the 
approved business case to OMB for review prior to the 
solicitation process.
    Now, we asked you a pre-hearing question about this, and 
you stated that you would expect OFPP to follow up with an 
agency when it is clear that the agency has failed to consider 
the suitability of existing interagency vehicles and agency-
specific contracts or when the agency has failed to describe 
the value that would be added by establishing a new contract 
because those would be warning signs of a wasteful investment.
    But, my point is, how are you going to know?
    OFPP generally does not see the agency's business case 
unless it is exercising this discretion broadly or unless it is 
in the IT area. So, how would you know that an agency had 
failed?
    Mr. Jordan. I am encouraged when you mention the GWACs in 
IT. That is $80 billion that flows through information 
technology, and so it is a critically important area that we 
reduce duplication, increase transparency, and lower cost.
    Senator Collins. And, it is an area where there has been 
failure after failure after failure.
    Mr. Jordan. And so, in that area, working with our Chief 
Information Officer, Steve VanRoekel, will be incredibly 
important. I am very excited, since we already have a good 
relationship, to hit the ground running and partner with him in 
that area because that is a huge part of our shared 
responsibility in E-government and OFPP.
    When it comes to the other types of multiple award 
contracts, we have to think about what are ways that we can 
improve in an efficient way our oversight of the creation and 
management of those types of vehicles.
    So, that interagency contract directory type of system 
would be one place that we would be able to have visibility.
    Looking at the Federal Business Opportunities Web site and 
monitoring that so that we know when these are coming up is 
another.
    And then, third--and a place that I am very excited to 
engage, if confirmed--is OFPP convenes the agencies on a 
periodic one-to-one basis in what are called Acquisition Status 
Updates (AcqStats), and I think this would be perfectly 
applicable to those types of conversations so, as you said, we 
get ahead of the knowledge curve and not clean up afterward.
    Senator Collins. I would like to suggest to you that--and I 
recognize what a small office OFPP is and how few staff you 
have--perhaps you should a couple of times a year just select 
an agency, a particular contract, and look at the business case 
and make an assessment, or partner with GAO and our Committee 
to do so.
    It just seems to me that it is one thing to have this 
memorandum that says that you are going to intervene when there 
is a failed or inadequate business case, but you do not see the 
business case. So how are you going to even know that it was 
failed unless the contract goes disastrously wrong? And then, 
it is after the fact, as you said.
    Mr. Jordan. Right.
    Senator Collins. So, I would like to suggest a spot check, 
an audit, a random selection of a couple of contracts a year 
where you would really drill down and look at the business 
case. You might be worried about what you would learn from 
that, but I think it would be helpful.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    Mr. Jordan, thanks for your testimony very much. Thanks to 
your family and friends for being with you. Thanks to your son, 
Carter, for his cameo appearance.
    I want to say for the record that his statements before he 
left made a lot of sense. [Laughter.]
    Senator Collins. What about his reaction to Senator 
McCain's comments?
    Chairman Lieberman. Also made a lot of sense.
    What I was teasing Senator McCain about was that I too 
often have been in his company when he said after the 2008 
election that he was sleeping like a baby. He would sleep for 2 
hours, wake up and cry, and he would go to sleep for 2 more 
hours. [Laughter.]
    And, I laugh at it every time for some strange reason.
    Well, the record of this hearing will be held open until 
noon tomorrow for the submission of any written questions or 
statements.
    We are attempting to move this nomination quickly because 
it is an important position and we want to get it filled. If 
all goes well, you will be on the markup of our Committee, 
which is tentatively scheduled for next week, and then 
hopefully, you will be out for consideration by the full 
Senate.
    But, I thank you for your interest in public service.
    And, with that, the hearing is adjourned.
    [Whereupon, at 11:11 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5212A.001

[GRAPHIC] [TIFF OMITTED] T5212A.002

[GRAPHIC] [TIFF OMITTED] T5212A.003

[GRAPHIC] [TIFF OMITTED] T5212A.004

[GRAPHIC] [TIFF OMITTED] T5212A.005

[GRAPHIC] [TIFF OMITTED] T5212A.006

[GRAPHIC] [TIFF OMITTED] T5212A.007

[GRAPHIC] [TIFF OMITTED] T5212A.008

[GRAPHIC] [TIFF OMITTED] T5212A.009

[GRAPHIC] [TIFF OMITTED] T5212A.010

[GRAPHIC] [TIFF OMITTED] T5212A.011

[GRAPHIC] [TIFF OMITTED] T5212A.012

[GRAPHIC] [TIFF OMITTED] T5212A.013

[GRAPHIC] [TIFF OMITTED] T5212A.014

[GRAPHIC] [TIFF OMITTED] T5212A.015

[GRAPHIC] [TIFF OMITTED] T5212A.016

[GRAPHIC] [TIFF OMITTED] T5212A.017

[GRAPHIC] [TIFF OMITTED] T5212A.018

[GRAPHIC] [TIFF OMITTED] T5212A.019

[GRAPHIC] [TIFF OMITTED] T5212A.020

[GRAPHIC] [TIFF OMITTED] T5212.044

[GRAPHIC] [TIFF OMITTED] T5212.045

[GRAPHIC] [TIFF OMITTED] T5212.046

[GRAPHIC] [TIFF OMITTED] T5212.047

[GRAPHIC] [TIFF OMITTED] T5212.048

[GRAPHIC] [TIFF OMITTED] T5212.049

[GRAPHIC] [TIFF OMITTED] T5212.050

[GRAPHIC] [TIFF OMITTED] T5212.051

[GRAPHIC] [TIFF OMITTED] T5212.052

[GRAPHIC] [TIFF OMITTED] T5212.053

[GRAPHIC] [TIFF OMITTED] T5212.054

[GRAPHIC] [TIFF OMITTED] T5212.055

[GRAPHIC] [TIFF OMITTED] T5212.056

[GRAPHIC] [TIFF OMITTED] T5212.057

[GRAPHIC] [TIFF OMITTED] T5212.058

[GRAPHIC] [TIFF OMITTED] T5212.059

[GRAPHIC] [TIFF OMITTED] T5212.060

[GRAPHIC] [TIFF OMITTED] T5212.061

[GRAPHIC] [TIFF OMITTED] T5212.062

[GRAPHIC] [TIFF OMITTED] T5212.063

[GRAPHIC] [TIFF OMITTED] T5212.064

[GRAPHIC] [TIFF OMITTED] T5212.065

[GRAPHIC] [TIFF OMITTED] T5212.066

[GRAPHIC] [TIFF OMITTED] T5212.067

[GRAPHIC] [TIFF OMITTED] T5212.068

[GRAPHIC] [TIFF OMITTED] T5212.069

[GRAPHIC] [TIFF OMITTED] T5212.070

[GRAPHIC] [TIFF OMITTED] T5212.071

[GRAPHIC] [TIFF OMITTED] T5212.072

[GRAPHIC] [TIFF OMITTED] T5212.073

[GRAPHIC] [TIFF OMITTED] T5212.074

[GRAPHIC] [TIFF OMITTED] T5212.075

[GRAPHIC] [TIFF OMITTED] T5212.076

[GRAPHIC] [TIFF OMITTED] T5212.077

[GRAPHIC] [TIFF OMITTED] T5212.078

[GRAPHIC] [TIFF OMITTED] T5212.079

[GRAPHIC] [TIFF OMITTED] T5212.080

[GRAPHIC] [TIFF OMITTED] T5212.081

[GRAPHIC] [TIFF OMITTED] T5212.082

[GRAPHIC] [TIFF OMITTED] T5212.083

[GRAPHIC] [TIFF OMITTED] T5212.084

[GRAPHIC] [TIFF OMITTED] T5212A.021

[GRAPHIC] [TIFF OMITTED] T5212A.022

[GRAPHIC] [TIFF OMITTED] T5212A.023

[GRAPHIC] [TIFF OMITTED] T5212A.024

[GRAPHIC] [TIFF OMITTED] T5212A.025

[GRAPHIC] [TIFF OMITTED] T5212A.026

[GRAPHIC] [TIFF OMITTED] T5212A.027

[GRAPHIC] [TIFF OMITTED] T5212A.028

[GRAPHIC] [TIFF OMITTED] T5212A.029

[GRAPHIC] [TIFF OMITTED] T5212A.030

[GRAPHIC] [TIFF OMITTED] T5212A.031

[GRAPHIC] [TIFF OMITTED] T5212A.032

[GRAPHIC] [TIFF OMITTED] T5212A.033

[GRAPHIC] [TIFF OMITTED] T5212A.034

[GRAPHIC] [TIFF OMITTED] T5212A.035

[GRAPHIC] [TIFF OMITTED] T5212A.036

[GRAPHIC] [TIFF OMITTED] T5212A.037

[GRAPHIC] [TIFF OMITTED] T5212A.038

[GRAPHIC] [TIFF OMITTED] T5212A.039

[GRAPHIC] [TIFF OMITTED] T5212A.040

[GRAPHIC] [TIFF OMITTED] T5212A.041

[GRAPHIC] [TIFF OMITTED] T5212A.042

[GRAPHIC] [TIFF OMITTED] T5212A.043

                                 <all>

</pre></body></html>
